CERTIFICATE OF SERVICE

No. 19-1326

Pursuant to this Court’s April 15, 2020 Order, I HEREBY CERTIFY that on
October 15, 2020, an original of Petition For Rehearing was mailed via U.S. first class
mail, postage prepaid, to the Clerk of the United States Supreme Court and a correct
copy was mailed via U.S. postal “priority mail” to opposing counsel at the following
address:
Clerk, Supreme Court of the United States
1 First Street, NE
Washington, DC 20543

Geri Romanello St. Joseph, Esquire
PA Supreme Court
Administrative Office of Pennsylvania Courts
1515 Market Street, Suite 1414
Philadelphia, PA 19102
(215) 560-6300

I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 15, 2020

f'lC'(/Ci
E. Thomas Scarborough III, pro se

